2311 Douglas Street CA L 1B £ E-Mail Address:
= a rie
Omaha, Nebraska 68102-1214 cs Est. i contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 21-86

AXON ENTERPRISE, INC.,
Petitioner,
v.
FEDERAL TRADE COMMISSION, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age. being duly sworn, upon my oath state that I did, on the 17th day of August, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF ATLANTIC LEGAL FOUNDATION AND CATO
INSTITUTE AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be
served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:

SEE ATTACHED
To be filed for:
ILYA SHAPIRO. LAWRENCE S. EBNER
CATO INSTITUTE Counsel of Record
1000 Mass. Ave., N.W. ATLANTIC LEGAL FOUNDATION
Washington, DC 20001 170] Penn. Ave., N.W.
(202) 842-0200 Washington, DC 20006
ishapiro@cato.org (202) 729-6337

lawrence.ebner@
atlanticlegal.org

Counsel for Amici Curiae

Subscribed and sworn to before me this 17th day of August, 2021
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska A 2 4 d,
RENEE J. GOSS 9. ¢ )_ ae A

Notary Public Affiant

My Comm. Exp. September 5, 2023

 

41127
Attorneys for Petitioner:

Paul D. Clement

Counsel of Record
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
paul.clement@kirkland.com
Party name: Axon Enterprise, Inc.

Attorneys for Respondents:

Elizabeth B. Prelogar
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Party name: Federal Trade Commission, et al.
